August 16, 2010

LARRY C. CRUSE
MANAGER, PAYROLL

LAWRENCE D. STEIN
MANAGER, HUMAN CAPITAL ENTERPRISE SYSTEM COMPETENCY CENTER

SUBJECT:         Audit Report –Territorial Cost–of–Living Allowance
                 (Report Number FT-AR-10-012)

This report presents an issue concerning Territorial Cost-of-Living Allowance (TCOLA).1
We identified this issue during our audit of the fiscal year (FY) 2010 Financial
Statements – Eagan Information Technology and Accounting Service Center (IT/ASC)
(Project Number 10BM001FT002). The objective of this portion of the audit was to
determine whether TCOLA was processed in accordance with legislation and Postal
Service policy.2 This self initiated audit addresses financial risk. See Appendix A for
additional information about this audit.

Postal Service policy requires TCOLA to be paid to employees who are working outside
of the continental United States. TCOLA payments are calculated based on the duty
station assigned to the various areas outside of the continental United States.

Conclusion

We reviewed TCOLA payments for the period September 12 to September 25, 2009,3
and confirmed they were generally processed in accordance with legislation and Postal
Service policy. However, we identified one payment, out of 7,414, where human
resources personnel entered a transitional employee’s4 incorrect duty station into the
Human Capital Management (HCM)5 application when he was hired. The employee was
stationed at the xxxxxxxx, GA, Post Office™ (PO) but was being paid TCOLA for the
Egegik, AK, PO duty station. This occurred because at the time of data entry, no
1
  Territorial cost–of–living allowance is also known as Non-foreign area Cost-of-Living Allowance.
2
  U.S. Code, Title 39 Part II, Chapter 10, Section1005(b), and Employee and Labor Relations Manual, February 2010,
Section 439.11.
3
  We initiated our audit of TCOLA at the beginning of October 2009. To ensure we had sufficient data, we selected
the period September 12 to September 25, 2009, for review.
4
  Transitional employees are paid hourly with a limited term appointment up to but not to exceed 1 year. 
5
  HCM is an integrated, enterprise-wide application that helps human resources personnel to administer several
functions, including personnel action processing.
Territorial Cost–of–Living Allowance                                                              FT-AR-10-012



procedures or edit checks existed to prevent or detect this type of input error. As a
result, the employee received TCOLA payments totaling $11,944 for the period
December 6, 2008, to November 20, 2009, when he was not performing duties located
in an area eligible for this benefit.

We consider the $11,944 as monetary impact, recoverable questioned cost.6 See
Appendix B for our calculation of monetary impact.

Issues with the accuracy of human resource information aggregated with other payroll
information could result in control deficiencies for financial reporting purposes.
Accordingly, we pursued this issue through the Sarbanes-Oxley control review
process.7 At this time, because we do not have any indications of other erroneous
TCOLA payments and do not believe the issue is systemic, our initial determination is
that this is a one-time, stand-alone issue.

After we brought the erroneous payment to management’s attention, they processed
personnel actions to correct the duty station. In addition, they established an accounts
receivable to collect the erroneous payment. Employee Resource Management, through
Human Resource Business Intelligence, is also planning to reactivate a data
governance/exception report, targeted for September 30 2010, to be reviewed daily to
identify anomalies of this type. Data governance/exception reports were available in the
past to identify different types of anomalies, but the reports were discontinued. Because
management corrected the issue and has planned to implement and monitor exception
reports, we are not providing any recommendations at this time. However, we will
continue to monitor the creation and reinstatement of data governance/exception
reports as part of our ongoing financial statements audit work.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability



6
  Recoverable costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations.
7
  The Postal Accountability and Enhancement Act of 2006 requires the Postal Service to comply with Section 404 of
the Sarbanes-Oxley Act of 2002 by September 30, 2010. As such, management must attest to the status of the
internal controls over financial reporting (ICFR) as of fiscal year-end, and the independent public accountant must
also issue an opinion on the ICFR.




                                                         2
Territorial Cost–of–Living Allowance       FT-AR-10-012




cc: Joseph Corbett
    Vincent H. DeVito, Jr.
    Jean D. Parris
    Nancy M. Laich
    Xuan Lan T. Le
    Dean R. Rodman
    Corporate Audit Response Management




                                       3
Territorial Cost–of–Living Allowance                                      FT-AR-10-012



                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

According to legislation and Postal Service policy, TCOLA is an amount that is payable
to Postal Service employees working outside of the continental United States. TCOLA
applies to approximately 7,400 employees stationed in Alaska, Hawaii, Guam, the
Commonwealth of Northern Mariana Islands, Puerto Rico, and the U.S. Virgin Islands.
TCOLA compensates for differences in prices of goods and services in each TCOLA
area as compared to Washington, D.C. The Office of Personnel Management conducts
surveys in the TCOLA areas and in the Washington, D.C., area to determine TCOLA
rates. The law limits TCOLA to no more than 25 percent of basic pay.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this portion of the FY 2010 Financial Statements - Eagan IT/ASC audit
was to determine whether TCOLA was processed in accordance with legislation and
Postal Service policy. To achieve our objective, we:

       Reviewed information from the HCM application.

       Analyzed employees’ duty station and office address.

       Verified TCOLA payments were not greater than 25 percent of basic pay.

       Interviewed Postal Service personnel.

We initiated our audit of TCOLA at the beginning of October 2009. To ensure we had
sufficient data, we selected the period September 12 to September 25, 2009, for our
review. To determine the total amount of the error, we added all erroneous payments
from December 2008, when the transitional employee was hired, through November
2009, when the employee separated from the Postal Service.

We conducted this portion of the audit from October 2009 through August 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on August 5, 2010, and
included their comments where appropriate.

We assessed computer-generated data and payroll journals from Postal Service payroll
systems. We used advanced data analysis techniques to test data gathered from these




                                            4
Territorial Cost–of–Living Allowance                                        FT-AR-10-012



systems and performed specific internal control and transaction tests, to include tracing
selected information to supporting source records. As such, we determined this data to
be sufficiently reliable.

PRIOR AUDIT COVERAGE

We are not aware of any prior audit coverage related to TCOLA.




                                            5
Territorial Cost–of–Living Allowance                                                                 FT-AR-10-012



                                    APPENDIX B: MONETARY IMPACT

We calculated erroneous TCOLA payments by pay period8 as follows:

                                       Recoverable Questioned Cost9

                                 Pay Period                                  Erroneous Payment 
              December 06 – 19, 2008                                                                  $523
              December 20, 2008 – January 02, 2009                                                    $459
              January 03 – 16, 2009                                                                   $453
              January 17 – 30, 2009                                                                   $428
              January 31 – February 13, 2009                                                          $527
              February 14 – 27, 2009                                                                  $453
              February 28 – March 13, 2009                                                            $486
              March 14 – 27, 2009                                                                     $329
              March 28 – April 10, 2009                                                               $414
              April 11 – 24, 2009                                                                     $448
              April 25 – May 08, 2009                                                                 $487
              May 09 – 22, 2009                                                                       $384
              May 23 – June 05, 2009                                                                  $460
              June 06 – 19, 2009                                                                      $547
              June 20 – July 03, 2009                                                                 $527
              July 04 – 17, 2009                                                                      $512
              July 18 – 31, 2009                                                                      $491
              August 01 – 14, 2009                                                                    $473
              August 15 – 28, 2009                                                                    $387
              August 29 – September 11, 2009                                                          $421
              September 12 – 25, 2009                                                                 $527
              September 26 – October 09, 2009                                                         $566
              October 10 – 23, 2009                                                                   $528
              October 24 – November 06, 2009                                                          $407
              November 07 – 20, 2009                                                                  $436
              Separation Payment                                                                      $272
                          Total Monetary Impact                                                    $11,944




8
    Pay period occurs every 14 days.
9
    Recoverable costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations.




                                                            6
